August 5, 2009

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

JORDAN M. SMALL
ACTING VICE PRESIDENT, NETWORK OPERATIONS

LINDA J. WELCH
ACTING VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

SUBJECT: Management Advisory – Fuel Management Initiatives for Surface Network
         Operations – Fuel Purchasing Strategy
         (Report Number NL-MA-09-001)

This report presents the results of our self-initiated review of Fuel Management
Initiatives for Surface Network Operations (Project Number 08XG029NL000). The
objective was to assess the effectiveness of the U.S. Postal Service’s fuel management
initiatives in controlling fuel costs. This report focuses on the planning and
implementation of the Postal Service’s National Fuel Purchasing Strategy (fuel strategy)
and addresses strategic, financial, and operational risks. See Appendix A for additional
information about this review.

Conclusion

The Postal Service has taken positive steps in developing a fuel strategy to promote
efficiencies and realize cost savings in purchasing fuel. However, the Postal Service
has not yet fully planned and implemented the fuel strategy to ensure accomplishment
of desired outcomes and has recently placed the fuel strategy on hold because of other
competing priorities. As a result of this delay, the Postal Service incurred about $20
million in unnecessary fuel acquisition costs 1 since August 2008. Further, the Postal
Service is missing an opportunity to save approximately $20 million annually. 2 We also
noted a fuel “hedging” strategy should be further considered as part of the Postal
Service’s fuel purchase risk management plan.

1
  The $20 million in monetary impact represents unrecoverable questioned costs, which are costs that are
unnecessary, and covers the period August 2008 through July 2009 for which the Postal Service should have had, at
a minimum, a well-developed plan with implementation time frames.
2
  The Postal Service’s potential savings are preliminary estimates based primarily on its analysis of transactional data
and purchasing patterns. This represents the midpoint of the Postal Service’s current potential savings range of $16
to $24 million annually.
Fuel Management Initiatives for Surface                                NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy



Delays in National Fuel Purchasing Strategy Planning and Implementation

In January 2008, the Postal Service began developing a data-driven fuel strategy to
promote increased efficiency and cost reduction for the Postal Service. However, the
Postal Service has not yet:

   •   Implemented a rigorous and disciplined project management plan with time
       certain target dates.

   •   Considered all operational factors for successful implementation.

   •   Considered all the relevant organizational components including contracting,
       operations, and financial personnel at all levels.

   •   Considered major project risks and concerns.

   •   Included processes for monitoring compliance with strategy requirements.

   •   Assigned adequate project accountability and oversight at the appropriate level,
       with authority over all Postal Service Headquarters’ and field components that
       should be involved in planning and implementation.

The Postal Service has recently suspended work on the fuel strategy to address other
priorities where they believe the risks and potential financial benefits are greater.
Management stated that in order to address the significant decline in mail volume and
related financial losses to the Postal Service, they are undertaking a number of actions
across all operations to identify the greatest opportunities to increase efficiency and
reduce costs.

The responsibility for the current fuel strategy resides with the Transportation Asset
Management office under the general direction of the Vice President of Supply
Management. Accordingly, the main focus of the strategy to date has been on supply
chain management purchasing analyses and identification of cost savings opportunities.
However, collaboration needs to occur at all operational levels to direct operational
resources and ensure adequate support to address challenges, obstacles, and
concerns.

Although the Postal Service hopes to resume planning and implementation of the fuel
strategy in fiscal year (FY) 2009, they advised us that efforts will probably be delayed
until FY 2010. As a result, the Postal Service has incurred about $20 million in
unnecessary fuel acquisition costs since August 2008. If delays continue and if
implementation issues are not addressed, the Postal Service will continue to experience
missed opportunities to save as much as $20 million annually. See Appendix B for our
detailed analysis of this topic.



                                                 2
Fuel Management Initiatives for Surface                                                       NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy



We recommend the Vice President, Supply Management, Acting Vice President,
Network Operations, and Acting Vice President, Delivery and Post Office Operations,
coordinate to:

1. Assign appropriate accountability and cross-functional authority for the planning,
   implementation, and success of the National Fuel Purchasing Strategy; and provide
   adequate support from the appropriate headquarters’ functional areas and the nine
   Postal Service geographical areas.

2. Ensure appropriate allocation of contracting, operational, and financial resources at
   all levels to support the timely implementation of the National Fuel Purchasing
   Strategy.

3. Ensure adequate consideration of project management principles and best practices
   outlined in Appendix C in planning and implementing the National Fuel Purchasing
   Strategy, including development of a project management plan, which includes
   project goals, performance measures, baselines and target dates, changes to target
   dates, and documented reasons for changes.

4. Develop a risk mitigation plan to address major project risks to help achieve stated
   goals of the National Fuel Purchasing Strategy.

5. Develop measurement factors to monitor achievement of the stated goals of the
   National Fuel Purchasing Strategy, and consider including these factors as part of
   the National Performance Assessment plan as appropriate.

Other Matters – Fuel Purchasing Risk Management – Hedging

The Postal Service did not include fuel hedging 3 as part of its overall fuel strategy to
help control the volatility of fuel costs. 4 Management stated they continue to explore the
fuel hedging option and are developing a hedging infrastructure; however, they have not
yet decided to actively engage in hedging as part of their overall fuel management
strategy.

A review of best practices for managing risks associated with fuel price volatility found
that airline and other companies have successfully used hedging to better manage risks
by stabilizing fuel costs during a time of fluctuations and uncertainty. 5 There are various

3
  The goal of hedging is to ensure a more stable cost structure of purchasing fuel and to improve financial planning.
4
  Fluctuations in fuel prices impact Postal Service costs in two ways: they directly impact the Postal Service’s fuel
expenses and indirectly impact labor expenses through the cost-of-living adjustment calculation used in its union
contracts, which are based on the Consumer Price Index containing a fuel cost component.
5
  Airlines and other transportation companies spend a far larger percentage of their total expenses on fuel compared
to the Postal Service, thereby resulting in more risk associated with fuel prices. Specifically, while the Postal
Service’s fuel purchases are less than 3 percent of its total expenses, fuel expenses for other companies can make
up as much as 10 to 30 percent of their total expenses.




                                                          3
Fuel Management Initiatives for Surface                                 NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy


hedging techniques the Postal Service might want to consider to better manage its risk
and protect it against these dramatic price fluctuations. For example, the Postal Service
can hedge against the risk of potential price increases by locking in a predetermined
pricing structure for future fuel purchases. However, hedging can be speculative and
costly depending on the hedging strategy adopted. Additionally, certain hedging
vehicles can require investment-grade credit and significant transaction costs. Further,
a hedged entity could potentially pay more if there is a decrease in fuel prices.

Although hedging involves risks, we agree that the Postal Service should consider
incorporating hedging into its comprehensive fuel management framework by:

   •   Continuing to evaluate the viability of hedging;

   •   Developing an infrastructure to support the implementation of hedging; and,

   •   Considering designing and implementing a fuel hedging management program
       that will manage the risks of hedging against fluctuating fuel costs and improve
       the Postal Service’s financial planning efforts.

Because of the Postal Service’s on-going efforts, we are making no recommendation
regarding this issue. See Appendix B for more information on this topic.

Management’s Comments

Management agreed with our finding and recommendations. Management responded
that in view of the Postal Service’s current financial situation they have been fully
engaged in implementing several other strategies, which were resource intensive and
where the financial benefits were greater than those under the National Fuel Purchasing
Strategy. As a result, the fuel strategy became a lower priority for the Postal Service.
Additionally, management stated they will reconsider these fuel purchasing
opportunities and establish priorities as part of their goal setting process for FY 2010.
Further, management has set a target date of June 2010 for the establishment of a plan
for the implementation of all opportunities or in part, under the fuel strategy, including
assessment of risk and development of measurement factors.

Management disagreed with the monetary impact of $20 million in unrecoverable
questioned costs. Management stated that the estimated monetary impact of the fuel
strategy was just an analysis designed to provide senior management of the financial
potential of the strategy. Further, they note that the estimated monetary impact of
$16 to $24 million annually would be valid only if all four fuel strategy opportunities are
fully implemented and there is full compliance. Finally, management stated that
because their strategy impacts were only preliminary estimates of potential savings, this
should not be reported as questioned costs or potential missed opportunities.
Management’s comments, in their entirety, are included in Appendix E.




                                                 4
Fuel Management Initiatives for Surface                                 NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy


Management did not comment on fuel hedging, because we did not report it as a
recommendation.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report, and their corrective actions
should resolve the issues identified.

Regarding our monetary impact, we consider the amount appropriate based on the data
provided by management and the current conditions in the fuel market. As pointed out
by management, the National Fuel Purchasing Strategy was developed to identify and
explore opportunities to reduce the Postal Service’s cost of purchasing fuel. In
April 2008, as fuel prices were dramatically rising to unprecedented levels, Postal
Service management presented the fuel strategy to senior leadership as an opportunity
to reduce the cost of purchasing fuel. At that time, Postal Service management
estimated the total cost avoidance relating to the four purchasing opportunities as $20
to $27 million annually.

As fuel prices continued to rise – peaking at $4.76 a gallon for diesel fuel in July 2008 –
Postal Service management actively pursued the fuel strategy and continued its briefing
of senior leadership as to the savings opportunities and status. In October 2008, Postal
Service management advised that they reduced their estimated savings range to $16 to
$24 million due to their continued assessment of the savings opportunities. As late as
March 2009, we were advised by Postal Service management that they continued to
explore and assess the fuel strategy and were looking at validating opportunities in pilot
testing. In our assessment, the projected fuel savings as presented to senior leadership
were considered significant to move forward to the pilot phase.

Although we were later advised that the strategy was placed on hold due to other
priorities given the Postal Service’s financial position, the opportunity to reduce fuel
costs remain. Given the actual nature of the fuel strategy, the associated savings
identified by the Postal Service, and the extensive resources expended by the Postal
Service staff over 15 months, we believe that the reporting of questioned costs is
appropriate. We will report $20 million of monetary impact of unrecoverable questioned
costs in our Semiannual Report to Congress.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                 5
Fuel Management Initiatives for Surface                             NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
for Mission Operations

Attachment

cc: Patrick R. Donahoe
    Joseph Corbett
    Steven J. Forte
    Samuel M. Pulcrano
    Robert J. Pedersen
    Bill Harris




                                                 6
Fuel Management Initiatives for Surface                                                   NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is one of the largest consumers of fuel in the United States,
spending more than $2.3 billion on fuel for its transportation network during FY 2008.
This increase is more than $500 million over FY 2007 fuel costs. The Postal Service
uses more than 370 million gallons of fuel annually on highway surface transportation.
Highway Contract Route (HCR) suppliers used approximately 230 million gallons of
diesel fuel. Drivers of Postal Service-owned vehicles, including delivery, transportation,
and administrative vehicles, use the remaining 140 million gallons.

The Postal Service has considered many of the industry best practices in the
development of its fuel acquisition management program. (See Appendix D for the fuel
acquisition best practices considered.) Since 1998, the Postal Service has been
working on developing a fuel management framework to reduce the cost of acquiring
fuel. For example, the Postal Service conducted a study in 1998 on a number of fuel
acquisition and distribution strategies. The study focused on leveraging the Postal
Service’s market position as one on the nation’s largest fuel consumers and achieving
economies of scale by allowing the Postal Service to negotiate wholesale or “bulk” fuel
purchase prices with the nation’s major fuel suppliers.

Subsequently, the Postal Service developed the Bulk Fuel Purchase Plan, 6 which they
initiated 2 years later in September 2000. The plan included estimated annual savings
of more than $18 million; however, only approximately $1 million in annual savings was
realized. This was the result of control weaknesses, as reported by the U.S. Postal
Service Office of Inspector General (OIG) and Government Accountability Office
(GAO), 7 and implementation challenges resulting in limited participation by contractors.
Specifically, GAO’s May 2004 report concluded that some Postal Service supply chain
management data was unreliable and savings calculations from some supply chain
management initiatives were inaccurate or unverifiable. Additionally, the Postal Service
had been unable to realize millions of dollars in potential savings, because the bulk fuel
program experienced implementation problems in that only 600 of more than
17,000 highway routes were involved in the bulk fuel program nearly 4 years after
implementation.

In their response to the GAO report, Postal Service management stated that the bulk
fuel program presented a significant savings opportunity when compared to the
reimbursement of individual contractors for retail purchases; and that they were
developing a plan to expedite new wholesale fueling sites for highway contractors.
However, less than 1 year later, the Postal Service began moving away from its efforts

6
  Highway transportation contractors, who own large trucking companies and who operated their own fuel storage
and pumping facilities, would act as “host fuelers” for smaller contractors.
7
  Refer to the Prior Audits section for a listing and summary of these reports.




                                                        7
Fuel Management Initiatives for Surface                                                       NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy


to move highway contractor fuel procurement to a wholesale environment because of
implementation challenges with its Bulk Fuel Purchase Plan.

In March 2005, the Postal Service expanded its highway contractor retail fuel
procurement by issuing Voyager Cards 8 to highway contractors. In its February 2007
report, the GAO concluded that the Postal Service was highly vulnerable to fuel price
fluctuations in part because its fuel purchasing process involved buying fuel as needed
at retail locations, and the Postal Service had incomplete data on its fuel procurement
programs because it did not have effective systems to track or monitor fuel purchases. 9




           New U.S. Postal Service
           SmartPay2 Voyager Card
             issued to highway
                contractors.




The Postal Service’s current fuel acquisition program for highway contractors is
primarily based on the purchase of fuel at retail locations via the Voyager Card. The
Voyager Card program provides more complete fuel spend data for analysis but also
makes the Postal Service vulnerable to fuel price fluctuations. Recent efforts by the
Postal Service are focused on moving the acquisition of fuel from indiscriminate retail
purchasing through the development of a data-driven fuel strategy to promote
efficiencies and realize cost savings. In January 2008, as part of its response to GAO’s
findings, the Postal Service undertook an extensive “spend analysis” 10 focused on
analyzing the Voyager fuel data over a 2-year period to identify purchase patterns. The
spend analysis resulted in the development of a four-pronged fuel strategy.

The fuel management acquisition strategy, design, development, planning, and policy
are the responsibility of the headquarters Vice President, Supply Management.
However, the nine Area Vice Presidents; Vice President, Network Operations, and Vice
President, Delivery and Post Office Operations, have significant interface with Supply
Management, and are responsible for ensuring successful implementation, including
compliance and monitoring, of fuel management and acquisition policy. There is no


8
  The Voyager Card is a financial instrument used like a credit card. It is used to fuel vehicles at more than 200,000
retail locations nationwide, and is administered under the government-wide General Services Administration
SmartPay Program.
9
  The GAO audit work started in April 2006, which was the first partial year of the HCR Voyager program. Since that
time, the Postal Service has gathered and assessed transactional data for two full fiscal years and has moved the
HCR Voyager transactions to its Fuel Asset Management System (FAMS) database.
10
   The spend analysis provides information on who is buying fuel, the locations, and the cost, and it identifies the
opportunities to leverage buying power.




                                                           8
Fuel Management Initiatives for Surface                                 NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy


single program accountability for overseeing both planning and implementation of the
strategy.

In addition to the fuel strategy, the Postal Service took several steps in recent years to
strengthen its fuel management framework in an effort to better control fuel costs and
integrate its environmental activities. The steps taken include – establishing a
centralized fuel management unit at headquarters (Transportation Asset Management)
dedicated to fuel management and purchasing, and creating a vice president for
Sustainability who oversees energy initiatives. The focus of energy initiatives is to lead
the cross-functional efforts of the Postal Service to reduce energy consumption and
costs while maintaining continuity of operations as outlined in the Postal Service’s
National Energy Management Strategy.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the effectiveness of the Postal Service’s fuel management
initiatives in controlling fuel costs. This report focuses on planning and implementation
of the fuel strategy.

To accomplish our objective, we interviewed Postal Service Headquarters’ Network
Operations, Supply Management, and energy initiatives officials to obtain an
understanding of the fuel management program and its history. We reviewed the Postal
Service’s draft fuel strategy and supporting documentation to determine whether the
listed opportunities were adequately developed, based on appropriate assumptions and
data, and provided reasonable assurance of reducing fuel acquisition costs. However,
we did not comprehensively audit the specific fuel purchasing techniques contained in
the fuel strategy and are not reporting on the identified techniques at this time.

We researched best practices for implementing major projects and identified best
practices for reducing fuel acquisition costs. We compared the best practices with the
Postal Service initiatives to determine whether the Postal Service considered the
practices in planning and implementing its fuel strategy and whether the Postal Service
considered options, such as hedging, to reduce fuel acquisition costs. See Appendix D
for the fuel acquisition best practices reviewed.

We conducted this review from May 2008 through August 2009, in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
relied on data obtained from Postal Service officials and data systems, including FAMS.
We did not test controls over the Postal Service data systems used for the spend
analysis. We performed limited data integrity reviews, including discussions with
officials to support our reliance on the data. We discussed our observations and
conclusions with management on June 5, 2009, and included their comments where
appropriate.




                                                 9
    Fuel Management Initiatives for Surface                                         NL-MA-09-001
     Network Operations – Fuel Purchasing Strategy


    PRIOR AUDIT COVERAGE

    The OIG and the GAO have issued three reports addressing fuel management data
    challenges and control weaknesses in fuel program implementation.



     Report Title         Report Number       Final Report Date               Report Results
Bulk Fuel Purchase         TR-AR-01-004         July 27, 2001     The Postal Service lacked qualified
Plan                                                              personnel to manage a fuel purchase
                                                                  program; had an ineffective
                                                                  decentralized system of fuel acquisition,
                                                                  which lacked a centralized fuel
                                                                  management unit; had inadequate
                                                                  analysis of the economic and
                                                                  operational impacts of fuel related
                                                                  decisions; and lacked computer-based
                                                                  fuel tracking and monitoring systems to
                                                                  monitor fuel usage and cost.
Postal Service             GAO-04-540           May 17, 2004      The Postal Service had mixed success
Progress in                                                       in implementing various supply chain
Implementing Supply                                               management initiatives. Regarding the
Chain Management                                                  bulk fuel program initiative, the Postal
Initiatives                                                       Service had been unable to realize
                                                                  millions of dollars in potential savings,
                                                                  because the program experienced
                                                                  implementation problems, including
                                                                  resistance from many highway
                                                                  contractors; setbacks in its plans to
                                                                  expand the number of bulk fuel delivery
                                                                  locations; and lack of an automated
                                                                  system to accurately capture fuel prices.
Vulnerability to           GAO-07-244         February 16, 2007   The Postal Service’s actions to control
Fluctuating Fuel Prices                                           fuel costs were generally consistent with
Requires Improved                                                 industry procurement and consumption
Tracking and                                                      practices, but the Postal Service could
Monitoring of                                                     improve in a couple of areas. First, the
Consumption                                                       Postal Service was highly vulnerable to
Information                                                       fuel price volatility, in part because its
                                                                  fuel purchasing process involved buying
                                                                  fuel as needed, particularly at retail
                                                                  locations. In addition, the Postal Service
                                                                  had incomplete data on its fuel
                                                                  procurement programs, because it did
                                                                  not have an effective system to track or
                                                                  monitor fuel use.




                                                     10
Fuel Management Initiatives for Surface                                                     NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy


                                APPENDIX B: DETAILED ANALYSIS

Delays in National Fuel Purchasing Strategy Planning and Implementation

In 2008, the Postal Service took positive steps to develop a fuel strategy to promote
efficiencies and realize cost savings in purchasing fuel. Postal Service Supply
Management conducted comprehensive analyses of “fuel spend” 11 market price data to
identifying cost savings opportunities. As a result of their analyses, four opportunities to
reduce the cost of purchasing fuel were identified. (See Table 1.) The overall objective
of the fuel strategy is to reduce fuel costs by shifting the purchase of fuel from
indiscriminate retail locations to either bulk locations or “retail cost leaders.” 12

                 Table 1: National Fuel Purchasing Strategy Opportunities

                                                                                       Monetary
                                                                                               13
                 Opportunity                         Mission                           Impact
                                                                                     (in millions)

                                  Shift Postal Service retail spend to existing
                        1                                                               $3 - 5
                                  Postal Service bulk fuel sites.


                                  Shift HCR and Postal Service retail spend
                        2                                                               $1 - 2
                                  to existing HCR bulk fuel sites.

                                  Add new bulk tanks at select Postal
                                  Service facilities, and collaborate with
                        3                                                               $7 - 10
                                  other bulk providers to extend the bulk
                                  network in high consumption areas.
                                  Shift HCR and Postal Service retail spend
                        4                                                               $5 - 7
                                  to retail cost leaders.


The Postal Service has not yet fully planned and implemented its fuel strategy, and
none of the four opportunities have been initiated. The Postal Service has experienced
numerous delays in planning and implementation since July 2008, its original target
date for developing an implementation plan. As of April 2009, the Postal Service
suspended the planning, testing, and implementation of the fuel strategy because of
competing priorities and expects to resume their efforts in FY 2010. There are still
many unanswered questions and further analysis and work is needed.



11
   “Fuel Spend” is the amount the Postal Service spends annually for diesel fuel and gasoline for its surface
transportation as derived by Voyager Card transactions.
12
   Retail cost leaders are the lowest-cost retail merchants in the geographical area based on an analysis of retail
petroleum pricing data from the Oil Price Information Service.
13
   Per the Postal Service’s National Fuel Purchasing Implementation Planning Status Update, October 2008, figures
are listed as per annum.




                                                         11
Fuel Management Initiatives for Surface                                                    NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy


For example:

     •   Opportunity 1 was originally determined to be the easiest cost-savings option to
         implement, because the Postal Service believed that directing Postal Service
         vehicle assets to use Postal Service-owned fueling locations would require less
         maneuvering and implementation time than the other options. However, the
         Postal Service has not yet developed an adequate plan to implement this
         opportunity quickly.

     •   Opportunity 3 was determined to be the most difficult cost savings option to
         implement, because it involved installing new bulk tanks at Postal Service
         facilities. This option has been substantially restructured with a focus on
         contracting with third-party bulk tanks facilities.

     •   Opportunity 4 requires the highest level of negotiations and cooperation from all
         operational groups, and a high-level of continuous monitoring. However, the
         Postal Service has not yet undertaken the necessary steps required to achieve
         support for implementation and monitoring at the facility level.

Further, the Postal Service has not yet assigned adequate accountability and oversight
with appropriate cross-functional authority over both planning and implementation of its
fuel strategy. Additionally, they have not yet allocated adequate resources to the
project and are not following a rigorous and disciplined project management and risk
mitigation approach to implementation. The Postal Service also has not tied the
success of the fuel strategy to performance goals.

A review of best practices found that the success of any strategic project or initiative
depends on appropriate planning and implementation. By applying accepted best
practices at both stages, the Postal Service will mitigate its risks and increase the
likelihood of success. See Appendix C for a summary of major strategy planning and
implementation best practices, 14 which should be considered by the Postal Service.
Using these best practices, we found that in planning and implementing their fuel
strategy, the Postal Service has not yet fully addressed the issues and concerns that
follow.

No Implementation Plan – The Postal Service did not have a sound implementation plan
with time certain target dates. For example, most of the savings opportunities will
involve negotiations and the finalization of agreements and HCR contracts, which will
require time for area and headquarters staff to complete. Time-sensitive target dates
would assist in ensuring the agreements and HCR contracts are completed on time.


14
  We benchmarked government agencies, private companies, and academic institutions to identify best practices for
planning and implementing strategic initiatives. The best practices contained herein were drawn from several audit
reports and internal control documents issued by the GAO, as well as documents issued by the Audit Director
Roundtable and Postal Service.




                                                        12
Fuel Management Initiatives for Surface                                  NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy


Operational Factors and Other Considerations – The fuel strategy is primarily based on
the analysis of spending patterns, and the Postal Service has not yet considered all
operational factors, requirements, and obstacles. For example,

   •   The Postal Service has not conducted an operational assessment with regard to
       shifting retail spends to bulk sites to determine whether Postal Service and HCR
       bulk fuel sites can accommodate the additional fuel volume and vehicles.


               Postal Service
            highway contractor
          driver fueling at a retail
          fuel location located in
           City of Industry, CA.

            December 22, 2008




   •   The Postal Service has not conducted an assessment of HCR bulk contractors’
       willingness to be a “host” site and allow other postal HCR contractors to obtain
       fuel at their sites. Further, controls and contract provisions may be required to
       ensure participation in the HCR bulk fuel program.

Involvement of Relevant Organizational Components – The Postal Service has not yet
identified and fully engaged all appropriate operational personnel at headquarters
(Network Operations and Delivery Operations) and at the areas and districts. These
resources include Information Technology resources to maintain the various data
systems and to run the data and generate scorecards; headquarters and area
resources to draft and negotiate the necessary agreements and contracts; and area and
local resources to monitor operational and HCR compliance and impact.

Other Major Project Risks and Concerns – We also identified a number of other project
risks and concerns that should be addressed in moving forward with the fuel strategy.

   •   Before retail spend is switched to retail cost leaders, the Postal Service should
       actively communicate and negotiate additional discounts based on the confirmed
       increased gallon totals.

   •   Most of the savings opportunities will involve negotiations and the finalization of
       agreements and HCR contracts, which will require significant resources and time
       to complete.

   •   The installation of additional bulk tanks at selected Postal Service facilities would
       require the assessment of federal and state environmental and regulatory




                                                 13
Fuel Management Initiatives for Surface                                  NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy


       requirements, as well as a capital investment analysis and approval. This will
       require close coordination and communication with regulatory agencies.

   •   The Postal Service’s preliminary savings for the four opportunities may include
       vehicles and/or contractors under more than one opportunity. Precautionary
       measures should be established to avoid double-counting and duplication of
       reported savings among the four opportunities.

   •   Pricing and spend data may become obsolete given the time needed to
       implement the fuel strategy. As such, any reported savings should be based on
       timely pricing information and spend data to ensure that dramatic
       increases/decreases in fuel pricing are not inadvertently captured as strategy-
       realized savings.

Compliance and Monitoring – We found the Postal Service has not yet developed a plan
to establish accountability for headquarters, area, and plant officials, as appropriate.
For example, to enhance monitoring, the Postal Service is considering the development
of a “scorecard” for contractor and Postal Service vehicles, which would measure actual
fuel costs against a geographical mean. Although the scorecards will help ensure ”best
value” purchases of fuel, they will require significant local resources and will depend
heavily on accurate and current cost and pricing data, regular monitoring, the follow-up
on identified outliers and timely corrective action. The Postal Service must provide the
necessary tools and resources required for the successful deployment of the scorecard
program.

As a result, although the planning for the fuel strategy began in January 2008, as of
June 2009, the strategy has not yet been implemented and savings have not yet been
realized. The Postal Service has incurred about $20 million in unnecessary fuel
acquisition costs since June 2008 and is missing an opportunity to save approximately
$20 million annually.

Other Matters – Fuel Purchase Risk Management – Hedging

The Postal Service did not include fuel hedging as part of its overall fuel strategy to help
control the volatility of fuel costs. Management stated they continue to explore the fuel
hedging option and are developing a hedging infrastructure; however, they have not yet
decided to actively engage in hedging as part of their overall fuel management strategy.

Before the Postal Service can engage in hedging, it must have a well developed
hedging infrastructure in place to support hedging. A hedging infrastructure would
include the development of policies and procedures; establishment of financial controls;
determination of applicable hedging accounting practices; assessment of required
resources and expertise; drafting of agreements; and obtaining the proper delegations
and authorizations. An adequate hedging infrastructure will provide the Postal Service
with the capability to hedge if they decide to engage in hedging.




                                                 14
Fuel Management Initiatives for Surface                                                    NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy


The price of petroleum has been extremely volatile recently, and fuel price increases
can significantly impact the Postal Service’s expenses and financial results. Following
is a sampling of the average nationwide fuel prices since January 2007, showing the
volatility in the marketplace:

         Table 2: Average Monthly Price Per Gallon – Nationwide Retail Cost 15

                                                    Gasoline
                            Effective Period                           Diesel Fuel
                                                    (Regular)
                              January 2007            $2.240              $2.485

                                July 2007              2.965               2.868

                              January 2008             3.043               3.308

                                July 2008              4.062               4.703

                              January 2009             1.788               2.292

                               March 2009              1.959               2.092


The goal of hedging is to create a more stable cost structure of purchasing fuel and to
improve financial planning, and hedging is one tool to help control costs during volatile
periods. Hedging has been more prevalent in the airline industry over the last 20 years.
However, as the price for petroleum has fluctuated significantly in recent years, trucking
companies and other businesses heavily dependent on fuel have developed fuel
hedging strategies to improve their financial planning and manage costs and volatility
associated with fuel costs. Additionally, the recent increase in fuel costs have brought
about significant fuel surcharges from fuel-dependent industries, such as shipping
companies like FedEx and United Parcel Service, and commercial airlines and trucking
companies, enabling them to mitigate their risks and pass on increased fuel costs to
their customers. However, because of the Postal Service’s operational environment, it
cannot directly pass on these increased fuel costs to its customers. The exception is
the Postal Service’s shipping services products, which is a small component of its
operations.

There are various hedging techniques the Postal Service may want to consider to better
manage its risk and protect it against these dramatic price fluctuations. For example,
the Postal Service can hedge against the risk of potential price increases by locking in a
predetermined pricing structure for future fuel purchases. However, hedging can be
very risky, speculative, and costly, and certain hedging vehicles may require
investment-grade credit and significant transaction costs.



15
   Retail prices were obtained from the U. S. Department of Energy, Energy Information Administration (EIA). The
pricing data represents national monthly retail prices for Number 2 diesel fuel and regular gasoline.




                                                        15
Fuel Management Initiatives for Surface                               NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy


Further, a hedged entity could potentially pay more if fuel prices decrease as was the
case within the past 15 months (see preceding table). For example, an entity could
have hedged against future price increases in January 2008 when the price of gasoline
increased to $3.04 per gallon by locking in future fuel purchases at $3.50 per gallon.
However, because the market price of gasoline decreased to $1.79 per gallon in
January 2009, the hedging strategy would have proven to be more costly, given the
significant drop in price.

Although hedging involves risks, we agree that the Postal Service should consider
incorporating hedging into its comprehensive fuel management framework by:

   •   Continuing to evaluate the viability of hedging;

   •   Developing an infrastructure to support the implementation of hedging; and

   •   Considering designing and implementing, a fuel hedging management program
       that will manage the risks of hedging against fluctuating fuel costs and improve
       the Postal Service financial planning efforts.




                                                 16
Fuel Management Initiatives for Surface                                                    NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy


         APPENDIX C: STRATEGY PLANNING AND IMPLEMENTATION BEST
                              PRACTICES 16


                                                Planning Phase
     Identify all organizational stakeholders from all levels and locations and include them early in
     the process to identify all concerns, and adjust strategies based on stakeholder input.
     Form cross-functional and cross-organizational teams consisting of people with the required
     competencies and authority.
     Develop a documented project plan to manage and control the project’s implementation,
     including requirements, resources needed, goals, performance measures and baselines, target
     dates, risks and mitigation measures, and responsibilities.
     Provide for the plan to be flexible and dynamic, requiring periodic reviews and revisions based
     on operational concerns, lessons learned, changes in the marketplace, and so forth.
     Assess risks, including organizational-culture risks.
     Identify risk mitigation measures regarding the implementation schedule, compliance, and
     project failure.
     Develop cost savings estimates that are comprehensive to all expenses, firm for goal setting,
     and reasonable.
     Use baselines to establish a cost and volume fuel variance reporting system, so results can be
     compared for performance.
     Thoroughly document all elements of the project plan and periodically update and communicate
     them to all stakeholders.
     Conduct an operations test in a geographic area representative of the operational environment
     expected during roll-out.

                                            Implementation Phase
     Encourage continued support from all organizational stakeholders with an emphasis on senior
     leadership and address resistance to change within the organization and with vendors.
     Encourage organizational-wide ownership.
     Include training for headquarters, area and plant managers, staff, and HCR contractors.
     Establish or revise policies and procedures that support the fuel initiatives.
     Implementation status must be monitored regularly and the plan adjusted as needed.
     Measure project success through performance goals.
     Enforce accountability to goals and timelines, and link project success to personnel
     performance.
     Provide for post-implementation monitoring of results and tracking of results against the plan.
     Any reported cost savings through variances must be reasonable, validated, and documented.
     Communicate correct detail of results in a timely manner to the proper stakeholders, and
     address what is working and what is not working as well as was expected.
     Provide for the continuous improvement of the strategy.


16
   We benchmarked government agencies, private companies, and academic institutions to identify best practices for
planning and implementing strategic initiatives. The best practices contained herein were drawn from several audit
reports and internal control documents issued by the GAO, as well as documents issued by the Audit Director
Roundtable and Postal Service.




                                                        17
Fuel Management Initiatives for Surface                                                       NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy


                   APPENDIX D: FUEL ACQUISITION BEST PRACTICES 17


                                     FUEL MANAGEMENT TOOLS 18
                            Develop and implement a fuel buying plan.
                            Appoint a fuel manager.
                            Centralize fuel procurement.
                            Purchase wholesale (bulk) fuel.
                            Install on-site fuel tanks.
                            Implement on-site wet hosing (mobile re-fueling).
                            Track purchases with a fuel card.
                            Negotiate discounts and rebates with fuel card companies.
                            Perform market price analysis using current technology.
                            Negotiate price with suppliers.
                                                                             19
                            Research and transition to alternative fuels.
                                                                20
                            Apply customer fuel surcharges.
                                                                             21
                            Develop a hedging (risk management) plan.




17
   We identified the industry best practices to manage fuel acquisition costs based on our extensive research and
benchmarking efforts of other government agencies and private companies. All of these industry practices are
situational and depend on an organization’s operations, structure, and the size and dispersion of its fleet.
18
   An organization should consider all associated risks and impacts of each practice, including environmental,
financial, and operational risks, in the development of its overall fuel management plan. The viability of each option
or degree to which implemented will change as an organization’s risks change, and an organization must continually
evaluate the appropriate mix of these tools as part of its comprehensive fuel management framework. Except as
noted below, we found that the Postal Service considered these best practices in the development of its fuel
acquisition management program.
19
   The Postal Service operates a large alternative fuel-capable fleet and has embarked on a variety of initiatives to
further lessen its dependence on fossil fuels.
20
   As discussed in Other Matters above, the Postal Service does not have the authority to impose fuel surcharges on
its customers the way private companies directly pass fuel costs on to their customers.
21
   The Postal Service continues to explore the fuel hedging option and is developing a hedging infrastructure but has
not yet decided to actively engage in hedging as discussed under Other Matters in this report.




                                                          18
Fuel Management Initiatives for Surface                    NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy


                       APPENDIX E: MANAGEMENT’S COMMENTS




                                                 19
Fuel Management Initiatives for Surface               NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy




                                                 20
Fuel Management Initiatives for Surface               NL-MA-09-001
 Network Operations – Fuel Purchasing Strategy




                                                 21
